Allon Kedem
+1 202.942.6234 Direct
allon.kedem@arnoldporter.com

June 29, 2021

The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Oracle America, Inc. v. United States, No. 20-1057

Dear Mr. Harris:
I represent petitioner Oracle America, Inc. in the above-captioned case. On January
29, 2021, the petition for a writ of certiorari was filed. On May 3, the United States filed
its response; respondent Amazon Web Services, Inc. filed a waiver of its right to respond
on the same day. Oracle filed its reply to the United States on May 17. On May 19, the
Court requested a response from Amazon, which was filed on June 18. Earlier today,
Oracle filed its reply to Amazon. Under this Court’s Rule 15.5, I write to waive the 14-day
waiting period and request that the petition, amicus brief, responses, and replies be
distributed to the Court without delay for its consideration.
I understand that upon the submission of this waiver, the petition, amicus brief,
responses, and replies will be distributed on the next scheduled distribution date—June 30,
2021—for consideration at the Court’s September 27 Conference.

Respectfully Submitted,

Allon Kedem

Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave, NW | Washington, DC 20001-3743 | www.arnoldporter.com

